U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Demetrius Elishakim Jefferson v. United States of America,
S.Ct. No. 20-6745

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 4,
2020, and placed on the docket on December 31, 2020. The government’s response is due on
February 1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6745
JEFFERSON, DEMETRIUS ELISHAKIM
USA

ADAM D. ZENOR
111 EAST GRAND AVENUE
SUITE 400
DES MOINES, IA 50309

